GR-40-98-010
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grants to the Metropolitan Nashville, Tennessee Police Department
 
GR-40-98-010
April 1998
 
 EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Metropolitan Nashville, Tennessee, Police Department (MNPD). The
MNPD received a $2,025,000 grant (95-CC-WX-0460) to hire or rehire 27 additional sworn
officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program and a
$9,000,000 supplement to the AHEAD grant to hire or rehire 120 additional sworn officers
under the Universal Hiring Program (UHP). The MNPD also received a $280,904 grant
(95-CL-WX-0042) to redeploy 39.7 officer full-time equivalents (FTE) under the Making
Officer Redeployment Effective (MORE) program and an additional $1,139,859 grant
(97-CL-WX-0047) to redeploy 44.7 officer FTEs under the MORE program.
In brief, the grantee violated some of the grant conditions. Specifically, the MNPD:


- Could not provide documentation to support the redeployment of 20.34 of the 39.7
    officer FTEs required under the first MORE grant. Consequently, $143,891 in related
    salaries and fringe benefits are unsupported.
- Claimed reimbursement under the AHEAD/UHP grant for retirement claimed but not
    deducted, and for errors in computing shift pay and docked pay ($123,667).
- Held $31,524 in MORE funds drawn down on June 5, 1996, until 
December 10, 1997. Consequently, the MNPD should return $2,063 in interest earnings to
    the Federal government.
- Supplanted $524,700 in local funds with COPS funds under the UHP program.


#####